No. 20-1197

In the Supreme Court of the United States
__________________
EUGENE MILTON CLEMONS II,
Petitioner,
v.
JEFFERSON S. DUNN, COMMISSIONER, ALABAMA
DEPARTMENT OF CORRECTIONS, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Eleventh Circuit

__________________
BRIEF FOR NATIONAL ASSOCIATION OF
SOCIAL WORKERS AS AMICUS CURIAE
SUPPORTING PETITIONER

__________________
JOHN H. FLEMING
ANN GRUNEWALD FORT*
EVERSHEDS SUTHERLAND
(US) LLP
999 Peachtree Street, NE
Suite 2300
Atlanta, GA 30309-3996
(404) 853-8000
AnnFort@eversheds-sutherland.us

ANNE B. CAMPER
NATIONAL ASSOCIATION OF
SOCIAL WORKERS
750 First St. NE
Suite 800
Washington, D.C. 20001
(800) 638-8799

*Counsel of Record
Counsel for Amicus Curiae
March 31, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I. There Is Unanimous Professional Consensus
That the Diagnosis of Intellectual Disability
Requires Comprehensive Assessment and the
Application of Clinical Judgment. . . . . . . . . . . . . 6
A. Comprehensive assessment requires
concurrent analysis of intellectual and
adaptive functioning . . . . . . . . . . . . . . . . . . . . 9
B. Professional assessment of the individual’s
overall functioning, putting both intellectual
and adaptive functioning into context in a
single, comprehensive understanding of the
individual, is central to the rationale of the
Atkins decision. . . . . . . . . . . . . . . . . . . . . . . . 11
C. A system for identifying defendants with
intellectual disability that does not view the
individual's intellectual functioning in the
context of the adaptive functioning evidence
is based on a fundamental misunderstanding
of the diagnostic criteria . . . . . . . . . . . . . . . . 13
II. Professional and Legal Standards Require
Genuine Assessment of the Evidence – Not Just
Lip Service to the Correct Standards. . . . . . . . . 15

ii
A. The Alabama Court Had the Proper
Professional Standards Before It When
Evaluating Mr. Clemons’s Intellectual
Disability . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
1. Intellectual Functioning . . . . . . . . . . . . . 15
2. Adaptive Functioning . . . . . . . . . . . . . . . 17
3. Age of Onset . . . . . . . . . . . . . . . . . . . . . . . 17
B. The Alabama Court Inexplicably Failed to
Apply Those Professional Standards When
Evaluating the Evidence of Mr. Clemons’s
Intellectual Disability . . . . . . . . . . . . . . . . . . 18
1. Intellectual Functioning . . . . . . . . . . . . . 18
2. Adaptive Functioning . . . . . . . . . . . . . . . 18
3. Onset Prior to 18 . . . . . . . . . . . . . . . . . . . 22
C. When a Court Adopts a Standard, the Court
Must Apply That Standard to the Facts. . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iii
TABLE OF AUTHORITIES
CASES
Atkins v. Virginia,
536 U.S. 304 (2002). . . . . . . . . . . . . . . . . . . passim
Clemons v. State,
55 So.3d 314 (Ala. Crim. App. 2003) . . . . . . . . . 20
Holland v. Jackson,
542 U.S. 649, 124 S. Ct. 2736 (2004) . . . . . . . . . 25
Lockett v. Ohio,
438 U.S. 586 (1978). . . . . . . . . . . . . . . . . . . . . . . 12
McDaniel v. Brown,
558 U.S. 120, 130 S. Ct. 665 (2010) . . . . . . . . . . 25
Miller-El v. Cockrell,
537 U.S. 322, 123 S. Ct. 1029 (2003) . . . . . . . . . 26
Moore v. Texas,
___ U.S. ___, 137 S. Ct. 1039 (2017) . . . . . . . . . . 22
U.S. v. Garcia,
890 F.2d 355 (11th Cir. 1989). . . . . . . . . . . . . . . 24
Williams v. Taylor,
529 U.S. 362 (2000). . . . . . . . . . . . . . . . . . . . . . . 25
STATUTES
18 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . . . . . 25

iv
OTHER AUTHORITIES
2002 AAMR Manual (10th ed.) . . . . . . . . . . . . . 16, 18
Am. Ass’n on Intellectual & Developmental
Disabilities, Intellectual Disability: Definition,
Classification, and Systems of Support (11th ed.
2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Am. Psychiatric Ass’n, Diagnostic and Statistical
Manual of Mental Disorders (5th ed. 2013) . . . passim
Diagnostic and Statistical Manual of Mental
Disorders (4th ed. 2000) . . . . . . . . . . . . . . . . . . . . 6
Mental Retardation: Definition, Classification, and
Systems of Supports (9th ed. 1992) . . . . . . . . . . . 6
Pub. L. No. 111-256, 124 Stat. 2643 (2010) . . . . . . . 2
Marc J. Tassé, Adaptive Behavior Assessment and
the Diagnosis of Mental Retardation in Capital
Cases, 16 Applied Neuropsychology (2009) . . . . . 8
Robert L. Shalock & Ruth Luckasson, Clinical
Judgment (AAMR 2005) . . . . . . . . . . . . . . . . . . . . 8
Social Work Speaks, (11th ed. 2018) . . . . . . . . . . . . . 1

1
INTEREST OF AMICUS CURIAE1
The National Association of Social Workers (NASW)
is a professional membership organization with
110,000 social workers in chapters in every State, the
District of Columbia and internationally. Since 1955,
NASW has worked to develop high standards of social
work practice while unifying the social work profession.
NASW promulgates professional policies, conducts
research, publishes professional studies and books,
provides continuing education and enforces the NASW
Code of Ethics.
NASW also develops policy statements on issues of
importance to the social work profession. Consistent
with those statements, NASW supports a system that
ensures that criminal defendants, especially in death
penalty cases, receive thorough mental health,
psychosocial, and trauma assessments.2

1

No counsel for a party authored this brief in whole or in part, and
no entity or person, other than amicus curiae, or its counsel, made
a monetary contribution intended to fund the preparation or
submission of this brief. All parties have consented to and received
timely notice of the filing of this brief.
2

NASW Policy Statements: Capital Punishment and the Death
Penalty, in Social Work Speaks, 29, 32 (11th ed. 2018).

2
SUMMARY OF ARGUMENT
In Atkins v. Virginia, this Court held that the
Eighth Amendment prohibits the execution of offenders
with intellectual disability.3 536 U.S. 304, 321 (2002).
When Petitioner Clemons made a claim of intellectual
disability under Atkins, the Alabama state court
adopted as its legal test the clinical standards for
diagnosing intellectual disability that prevailed at the
time: a diagnosis of significant limitations in general
intellectual functioning, significant limitations in
adaptive skills, and onset before adulthood.
The evidence before that court established Mr.
Clemons’s diagnosis of intellectual disability under this
standard: Mr. Clemons received a mental retardation
diagnosis as a first grader, his IQ falls within the
recognized range for intellectual disability, and the
uncontested results of his adaptive functioning
assessment establish significant limitations in six of
the ten adaptive functioning areas when only two are
necessary for an intellectual disability diagnosis. Yet

3

While the term “mental retardation,” was used by the parties and
the Court in Atkins, the preferred clinical term now is “intellectual
disability.” See Am. Ass’n on Intellectual & Developmental
Disabilities, Intellectual Disability: Definition, Classification, and
Systems of Support 3 (11th ed. 2010) (hereinafter, “AAIDD
Manual”). DSM-5 refers to “intellectual disability (intellectual
developmental disorder)” to indicate that the condition is a mental
disorder and a medical condition. Am. Psychiatric Ass’n,
Diagnostic and Statistical Manual of Mental Disorders 33 (5th ed.
2013) (hereinafter, “DSM-5”). Note also that Congress has enacted
“Rosa’s Law,” which replaces the term “mental retardation” with
“intellectual disability” throughout the U.S. Code and Code of
Federal Regulations. Pub. L. No. 111-256, 124 Stat. 2643 (2010).

3
the state court inexplicably reached the opposite
conclusion, and found he was eligible to be executed
under Atkins v. Virginia.
This Court’s decision in Atkins was grounded in the
national consensus that the execution of those with
intellectual disability undermines both “the penological
purposes served by the death penalty” and “the
strength of the procedural protections” guarded by this
Court’s capital jurisprudence. Id. at 317. That
consensus reflects an understanding that offenders
with intellectual disability have certain impairments —
such as “diminished capacities to understand and
process information, to communicate, to abstract from
mistakes and learn from experience, to engage in
logical reasoning, to control impulses, and to
understand the reactions of others” — that make them
less morally culpable and place them at a heightened
risk of wrongful execution. Id. at 318, 320–21. These
impairments are tied directly to the clinical definition
of intellectual disability, which this Court recognized
requires a diagnosis of significant limitations in
general intellectual functioning, significant limitations
in adaptive skills, and onset before adulthood. Id. at
308 n.3, 318.
The requirement of a comprehensive assessment of
all three diagnostic factors – not a piecemeal,
disjunctive assessment that stops if there is evidence of
an IQ over 70, for example – remains constant in the
mental health community. There is a unanimous
consensus among the mental health professionals that
accurate diagnosis requires clinical judgment based on
a comprehensive, interdependent assessment of the

4
complex attributes of an individual human being under
all three criteria. Contrary to the professional
standards, the court reached its conclusion that Mr.
Clemons had “failed to establish” his intellectual
disability by concluding that his IQ scores over 70
meant he failed to prove his intellectual disability. The
court did not consider the interplay among his IQ
testing history, his significant adaptive functioning
deficits, and the evidence of onset long before the age of
18.
When a capital defendant with Mr. Clemons’s
history scores above 70 on a standardized IQ test, a
thorough evaluation of adaptive functioning is crucial
to complete the analysis. Limitations in adaptive
functioning among individuals with IQ scores in this
range are what allow qualified professionals to make a
clinically valid diagnosis of intellectual disability, or
lack thereof.
As a matter of law, science and fact, the state
court’s failure to consider and address all the facts
necessary to a comprehensive assessment of
Petitioner’s condition constitutes error on a scale that
now threatens to take Petitioner’s life.

5
ARGUMENT
Petitioner Clemons faces execution despite his proof
of all three clinical and legal indicia of intellectual
disability: comprehensive assessment of the clinical
evidence establishes significant subaverage intellectual
functioning, significant limitation in adaptive
functioning, and that the condition manifested before
the age of 18. In the first grade Mr. Clemons was tested
and found “educable mentally retarded” (equivalent to
“mild mental retardation”), conclusively demonstrating
the onset of his intellectual disability prior to the age
of 18. Mr. Clemons’s first grade teacher reported that
he had made little, if any progress, in both reading and
math, while also demonstrating limitations in other
areas, including writing, large motor skills, and
following directions. Mr. Clemons left elementary
school briefly in the second grade, then returned, only
to continue underperforming academically, despite
competing against children at least two years younger.
Over his lifetime Mr. Clemons’s intelligence test
scores ranged from 51 to 84, with the most reliable of
those scores ranging from 53 to 76. After attempting to
complete the tenth grade twice and failing to do so, Mr.
Clemons withdrew from school, never attained a GED,
and performed poorly at several relatively low-skilled
jobs. As a pizza delivery driver, he frequently got lost
in his own neighborhood and was unable to count
change. In other jobs – at a grocery store, a gas station,
and an ice-cream store – his employers called him
“stupid” and told him to “[g]o home” because he was
slow. On the Adaptive Behavior Assessment Scale-II
(“ABAS-II”) test, where a significant deficit in two

6
categories of adaptive functioning suffices to establish
intellectual disability, Mr. Clemons was evaluated to
suffer from statistically significant deficits in six of the
ten categories of adaptive functioning: self-direction,
social skills, work skills, home living, health and
safety, and leisure.
The Alabama state court that concluded Mr.
Clemons was not intellectually disabled under Atkins
v. Virginia recited the standards accurately, yet
inexplicably ignored all of this evidence. The National
Association of Social Workers supports the grant of
certiorari, to establish that only an actual evaluation of
all of the data and evidence can satisfy a court’s
obligation to prevent the execution of intellectually
disabled people.
I. There Is Unanimous Professional Consensus
That the Diagnosis of Intellectual Disability
Requires Comprehensive Assessment and the
Application of Clinical Judgment.
As the Court recognized in Atkins, intellectual
disability is not just low intelligence, but rather a
diagnosis that requires a clinical assessment of a
person’s functioning in everyday life. See 536 U.S. at
308 n.3. The Court cited the intellectual disability
definitions of the American Psychiatric Association
(“APA”) and the American Association on Mental
Retardation (now known as the American Association
on Intellectual and Developmental Disabilities
(“AAIDD”)). Id. (citing Mental Retardation: Definition,
Classification, and Systems of Supports 5 (9th ed. 1992)
and Diagnostic and Statistical Manual of Mental
Disorders 41 (4th ed. 2000)). These diagnostic manuals,

7
along with their most recent revisions, reflect the
continuing professional consensus regarding the
diagnosis of intellectual disability.
The accepted clinical definitions4 of intellectual
disability include three criteria: (a) significant
limitations in general intellectual functioning;
(b) significant limitations in adaptive functioning; and
(c) onset before adulthood. See Am. Ass’n on
Intellectual & Developmental Disabilities, Intellectual
Disability: Definition, Classification, and Systems of
Support 27 (11th ed. 2010) (hereinafter, “AAIDD
Manual”); Am. Psychiatric Ass’n, Diagnostic and
Statistical Manual of Mental Disorders 33 (5th ed.
2013) (hereinafter, “DSM-5”).5
Although all three criteria must be present for
diagnosis of intellectual disability, the criteria do not
represent disjunctive or linear inquiries. The
significant limitations in general intellectual
functioning and adaptive functioning must be
evaluated in conjunction with each other, and by a
mental health professional exercising his or her clinical
judgment.6
4

The AAIDD Manual and DSM-5 definitions of intellectual
disability differ in some particulars not relevant to the question
presented to the Court in this case. They agree about the central
points made here.
5

The Court in Atkins relied on earlier versions of both the AAIDD
Manual and the DSM. The three criteria necessary for diagnosis
remain unchanged. See infra 13-14.
6

AAIDD Manual at 85 (clinical judgment “emerges directly from
extensive data and is based on training, experiences, and specific

8
This evaluation cannot be limited to a review of IQ
test scores because without further clinical assessment
it cannot be known what impairments in adaptive
functioning the person experiences, or what other
clinical indicators of impaired general intellectual
functioning exist. See DSM-5 at 37 (“The diagnosis of
intellectual disability is based on both clinical
assessment and standardized testing of intellectual and
adaptive functions.”); AAIDD Manual at 35
(emphasizing that “significant limitations in
intellectual functioning is only one of the three criteria
used to establish a diagnosis of [intellectual
disability]”). Clinical judgment is rooted in objective
criteria and multiple sources of data, including school
records and behavioral rating scales.7

knowledge of the person and his or her environment”); see also
Robert L. Shalock & Ruth Luckasson, Clinical Judgment 1 (AAMR
2005) (clinical judgment is “characterized by its being systematic
(i.e., organized, sequential, and logical), formal (i.e., explicit and
reasoned), and transparent (i.e., apparent and communicated
clearly)” (cited in AAIDD Manual at 86)).
7

Evaluation of adaptive functioning faces challenges including
obtaining records and information from those with knowledge of
the individual’s functioning over time, and the potentially
misleading nature of a defendant’s functioning in the highly
structured environment of a prison, where there is no need to
make the types of decisions that are part of ordinary life outside of
prison. See Marc J. Tassé, Adaptive Behavior Assessment and the
Diagnosis of Mental Retardation in Capital Cases, 16 Applied
Neuropsychology 114, 119 (2009) (“The ideal respondents are
individuals who have the most knowledge of the individual’s
everyday functioning across settings. . . .”).

9
A. Comprehensive assessment requires
concurrent analysis of intellectual and
adaptive functioning.
A comprehensive assessment must be “based on
multiple data points” that “include giving equal
consideration to significant limitations in adaptive
behavior and intellectual functioning.” AAIDD Manual
at 28. Because adaptive skills — such as abstract
thinking, social judgment, regulating emotion, and
resisting manipulation by others — are crucial to an
individual’s ability to live independently and function
within the boundaries of social norms, see DSM-5 at
33–34, the assessment of those skills is necessary to
evaluate an individual’s general intellectual
functioning and to arrive at a valid overall diagnosis.
The existence of concurrent deficits in intellectual
and adaptive functioning has long been the defining
characteristic of intellectual disability. Individuals are
usually identified in the first instance as potentially
having an intellectual disability by impairments in
their adaptive behavior, such as difficulty functioning
in everyday tasks.
Historically, individuals with intellectual disability
were identified by their communities “because they
failed to adapt socially to their environment.” AAIDD
Manual at 5. Then, with the development of the first
standardized intelligence tests resulting in an IQ score
in the early 1900s, there was a brief shift to reliance on
IQ tests “as an efficient and objective means to
distinguish individuals with [intellectual disability]
from the general population.” Id. at 43. Despite this
initial embrace, however, “dissatisfaction with the IQ

10
score as the sole indicator of ID emerged over time,” as
scientists and professionals realized that IQ testing
“only provided a narrow measure of intellectual
functioning related to academic tasks . . . thus ignoring
important aspects of intellectual functioning that
included social and practical skills.” Id. at 43–44.
The professional community then began developing
the comprehensive, multi-criteria analysis that has
been in use since the 1950s – decades before the state
court’s decision. Although impaired adaptive
functioning has always been the most noticeable
symptom of intellectual disability, the 1959 AAIDD
Manual was the first diagnostic guide to provide a
clinical definition for the concept of adaptive behavior,
defining it as “the degree to which the individual is
able to function and maintain himself independently”
and “the degree to which he meets satisfactorily the
culturally-imposed demands of personal and social
responsibility.” Id. at 44 (quotation marks omitted).8
Adaptive behavior has been included in the diagnostic
criteria for intellectual disability in each subsequent
edition of the manual. See id. at 8 (summarizing the
definitions used in each edition).
Similarly, since 1968 each edition of the DSM has
defined intellectual disability as subaverage
intellectual functioning that is either “associated with,”
“resulting in,” or “accompanied by” impairments in
adaptive behavior. See id. at 8–9 (summarizing the

8

At that time, the AAIDD was known as the American Association
on Mental Deficiency, the predecessor organization to the
American Association on Mental Retardation and the AAIDD.

11
definitions of DSM-II, DSM-III, DSM-III-R, DSM-IV,
and DSM-IV-TR).
As diagnostic methods have been refined in each
subsequent edition of these manuals, there has been a
steady trend towards emphasizing the importance of
clinical assessment of intellectual and adaptive
functioning and decreasing reliance on IQ tests. In
previous editions of the AAIDD and DSM manuals, this
trend has been demonstrated by inclusion of the
standard error of measurement (and resulting
confidence interval) when using IQ tests as a means of
assessing general intellectual functioning. See id. at
8–11.
B. Professional assessment of the individual’s
overall functioning, putting both
intellectual and adaptive functioning into
context in a single, comprehensive
understanding of the individual, is central
to the rationale of the Atkins decision.
The mental health profession clearly is concerned
with evaluating the whole person in light of the overall
impact of all deficits in both intellectual functioning
and adaptive functioning. Adaptive functioning deficits
put IQ scores into the context of an individual’s ability
to navigate life in society, and this understanding is
reflected in the Atkins decision itself. When discussing
the impairments that diminish the personal culpability
of offenders with intellectual disability and place them
at a special risk of wrongful execution, this Court
highlighted several specific deficits: “diminished
capacities to understand and process information, to
communicate, to abstract from mistakes and learn from

12
experience, to engage in logical reasoning, to control
impulses, and to understand the reactions of others.”
Atkins, 536 U.S. at 318. The Court also noted that
individuals with intellectual disabilities “often act on
impulse rather than pursuant to a premeditated plan,”
and “in group settings they are followers rather than
leaders.” Id.
These criteria, related to impaired adaptive
functioning, are especially important to the “[t]he risk
‘that the death penalty will be imposed in spite of
factors which may call for a less severe penalty.’”
Atkins, 536 U.S. at 320 (quoting Lockett v. Ohio, 438
U.S. 586, 605 (1978)). Clinical deficits in
communication, regulating emotion, and resisting
manipulation by others can contribute to “the
possibility of false confessions,” “the lesser ability of
mentally retarded defendants to make a persuasive
showing of mitigation,” less ability to serve as an
effective witness and “give meaningful assistance to
their counsel,” and the risk that the demeanor of
individuals with intellectual disability “may create an
unwarranted impression of lack of remorse for their
crimes.” Id. at 320-21. The importance of adaptive
functioning to this Court’s decision in Atkins thus
underscores the need for a comprehensive assessment
that includes these criteria in every capital case in
which a defendant manifests or claims to have
intellectual disability.

13
C. A system for identifying defendants with
intellectual disability that does not view
the individual’s intellectual functioning in
the context of the adaptive functioning
evidence is based on a fundamental
misunderstanding of the diagnostic
criteria.
The state court structured its analysis as an
inflexible legal test, where each factor was an isolated
step, rather than as a diagnosis, requiring a
comprehensive analysis of the complex experiences and
abilities of an individual human being under all three
factors. As a result, the court focused on Petitioner’s
IQ score as the gatekeeper, applying an inflexible
upper limit that disqualified him from the diagnosis,
regardless of the other factors. The court concluded
that Clemons’s IQ scores ranging between70-80 “place
him in the borderline range of intellectual functioning
and establish that he is not mentally retarded.” Pet.
App. 166a. Contrary to the professional standards, the
court reached its conclusion that Mr. Clemons had
“failed to establish” his intellectual disability without
considering the interplay among the IQ testing history,
the significant adaptive functioning deficits, and the
evidence of onset long before the age of 18. This
approach goes against the unanimous professional
consensus by treating intellectual functioning and
adaptive functioning as sequential and disjunctive
inquiries, rather than complementary factors in a
comprehensive inquiry into the condition of a
particular human being.

14
Contrary to the state court’s determination, the
relevant clinical authorities all agree that an individual
with an IQ score above 70 may properly be diagnosed
with intellectual disability – if significant limitations in
adaptive functioning also exist. AAIDD Manual at 35,
39–40. “For example, a person with an IQ score above
70 may have such severe adaptive behavior problems
in social judgment, social understanding, and other
areas of adaptive functioning that the person’s actual
functioning is comparable to that of individuals with a
lower IQ score.” Id.; see also AAIDD Manual at 40 (“It
must be stressed that the diagnosis of ID is intended to
reflect a clinical judgment rather than an actuarial
determination. A fixed point cutoff score for ID is not
psychometrically justifiable.”).
When a capital defendant with Mr. Clemons’s
history scores above 70 on a standardized IQ test, a
thorough evaluation of adaptive functioning is crucial
to complete the analysis. Limitations in adaptive
functioning among individuals with IQ scores in this
range are what allow qualified professionals to make a
clinically valid diagnosis of intellectual disability, or
lack thereof.
The facts of the instant case also provide a concrete
example of why a comprehensive assessment is
necessary. Mr. Clemons received a childhood diagnosis
of mental retardation, was unable to succeed in school,
and could not perform even the demands of low-skill
jobs. He lost a job delivering pizza because he could not
make change, and would get lost even in his own
neighborhood. He had a range of IQ scores from 51 to
84, with the most reliable of those scores ranging from

15
53 to 76, where the clinical standards caution that an
IQ score carriers a measurement error of +/- 5 points.
Under the universally accepted clinical standards for
diagnosing intellectual disability, the state court’s
determination that Mr. Clemons is not intellectually
disabled cannot be considered valid.
II. Professional and Legal Standards Require
Genuine Assessment of the Evidence – Not
Just Lip Service to the Correct Standards.
The Alabama court started out on the right foot – its
order recognized the proper professional standards that
were in effect at that time. The court stumbled,
however, when it inexplicably ignored the professional
evidence to conclude that Mr. Clemons was not
intellectually disabled.
A. The Alabama Court Had the Proper
Professional Standards Before It When
Evaluating Mr. Clemons’s Intellectual
Disability
As noted above, the legal test for intellectual
disability in Atkins is also the clinical definition in use
for many years before that decision: significant
subaverage intellectual functioning; significant
limitation in adaptive functioning; and the condition
manifesting before the age of 18. See 536 U.S. at 318.
The state court recognized the correct professional
standards when assessing these factors.
1. Intellectual Functioning.
As Petitioner observed, the state court twice
recognized that governing clinical standards did not

16
allow it to apply a strict IQ cutoff at 70 to determine
intellectual disability, and also noted a standard error
of measurement which is generally +/- 5. C.A. App. 247248. In so finding, the state court relied on the record
evidence, and the correct professional standards in
effect at the time of his state court Atkins hearing –
June of 2004:
• the DSM-IV (C.A. App. 248),
• the 1992 Manual of the American
Association of Mental Retardation
(AAMR) (now the American Association of
Intellectual and Developmental
Disabilities) (id. at 247), and
• the AAMR’s “most recent definition” (id.)
supplied by its website—understood to be
the 2002 AAMR (10th ed.). For example,
the DSM-IV-TR provides:
[I]t is possible to diagnose Mental Retardation in individuals with IQs between 70 and 75 who exhibit significant
deficits in adaptive behavior.
DSM-IV-TR at 41–42; see also C.A. App. 768; C.A. App.
973.
The AAMR Manual (10th ed.) defines significant
subaverage intellectual functioning “as approximately
70 to 75 [IQ], taking into account the measurement
error,” which, “[i]n effect, * * * expands the operational
definition of mental retardation to 75, and that score of
75 may still contain measurement error.” See 2002
AAMR Manual (10th ed.) at 58–59; C.A. App. 772; C.A.
App. 1973.

17
More importantly, an IQ score above this range does
not rule out a diagnosis of intellectual disability. The
relevant clinical authorities all agree that an individual
with an IQ score above 70 may properly be diagnosed
with intellectual disability – if significant limitations in
adaptive functioning also exist. “For example, a person
with an IQ score above 70 may have such severe
adaptive behavior problems in social judgment, social
understanding, and other areas of adaptive functioning
that the person’s actual functioning is comparable to
that of individuals with a lower IQ score.” AAIDD
Manual at 35, 39–40.
2. Adaptive Functioning.
Similarly, the state court adopted the APA’s clinical
standard for assessing adaptive functioning, finding
that an intellectual disability diagnosis turns on
adaptive functioning deficits—regardless of strengths.
According to the state court:
The American Psychiatric Association defines
mental retardation as “significantly subaverage
general intellectual functioning (Criterion A)
that is accompanied by significant limitations in
adaptive functioning in at least two of the
following skill areas * * *.
C.A. App. 248 (emphasis added); see Atkins, 536
U.S. at 309 n.3 (citing AAMR and APA definitions).
3. Age of Onset.
As to the final prong of the test for intellectual
disability, the state court accurately adopted the

18
standard of both the AAMR and the American
Psychiatric Association: the onset of the intellectual
disability must occur before 18 years of age. DSM-IVTR at 41; 2002 AAMR Manual (10th ed.).
B. The Alabama Court Inexplicably Failed to
Apply Those Professional Standards When
Evaluating the Evidence of Mr. Clemons’s
Intellectual Disability
1. Intellectual Functioning.
Even though both parties’ respective experts agreed
that there was no IQ cutoff at 70 (see C.A. App.
766–772, 824, 505–508), the Court of Appeals relied on
the state court’s finding that Mr. Clemons “consistently
scores in the 70–80 range” to uphold that court’s
ultimate finding “that Clemons failed to show
significantly subaverage intellectual functioning.” Pet.
App. 31a. Having found that Mr. Clemons’s IQ might
be as low as 70, the state court ought to have concluded
that Mr. Clemons satisfied the substantial intellectual
functioning deficit portion of the intellectual disability
analysis, especially when it recognized a standard error
of measurement of +/- 5 points, and the professional
literature the court cited states that individuals with
IQs of 75 (or even higher, if their adaptive functioning
limits are significant) can be intellectually disabled.
There is no intellectually honest way of concluding that
Mr. Clemons did not satisfy this prong,
2. Adaptive Functioning.
After correctly stating the adaptive functioning
standard, the state court failed to apply it.
Inexplicably, the court failed even to mention the

19
substantial evidence of Mr. Clemons’s adaptive
functioning deficits in six of ten functional categories.
We noted at the outset the importance of a
comprehensive assessment of intellectual disability in
arriving at an accurate diagnosis. Courts cannot ignore
material evidence of the disability in order to conclude
that the person does not suffer from it.
The only clinical instrument used to measure Mr.
Clemons’s adaptive functioning was the ABAS-II test,
which measures functioning in the ten areas identified
by the circuit court as clinically significant. Compare
Atkins, 536 U.S. at 308 n.3 (2002) (enumerating
clinically significant areas of functioning) with C.A.
App. 1136 (evaluating ten areas of functioning named
in Atkins). This test demonstrated that Clemons
suffered statistically significant deficits in six of the ten
categories of adaptive functioning; deficits in only two
are required to satisfy the standard for intellectual
disability. C.A. App. 511–515.
Neither the State nor its expert ever challenged the
validity of these test results, yet the state court ignored
the ABAS-II test results in their entirety, even though
Dr. Golden testified that “in a forensic setting like this,
the ABAS-II … is really the only test that is well
designed” to assess adaptive functioning. The court
chose instead to rely on Mr. Clemons’s supposed
adaptive functioning “strengths” even though that is
not a consideration in assessing this factor in the
intellectual disability assessment. C.A. App. at
514–515.
The state court relied upon clinically unsound
speculation that comprised commentary by two

20
psychologists, Dr. Grant and Dr. King, neither of whom
had ever evaluated Mr. Clemons for impaired adaptive
functioning.
Dr. Grant had conducted an evaluation of Mr.
Clemons “for the purpose of forming an opinion as to
[Mr. Clemons’s] competency to stand trial, mental
responsibility for his alleged conduct, and his
competence to waive his right to silence.” C.A. App.
930. Because Mr. Clemons’s adaptive functioning was
of no concern to Dr. Grant during the evaluation, Dr.
Grant could not, and did not, state that Mr. Clemons
was evaluated to not have any adaptive impairment.
Dr. Grant had also concluded from Mr. Clemons’s
“survival” in jail and the fact that he “arrived at the
interview carrying candy” that Mr. Clemons was not
being “victimized” like other “individuals with low
I.Q.’s in this [jail] setting,” despite having no basis for
reaching such a conclusion. Id. at 939–940. Dr. Grant
then concluded that Mr. Clemons had “demonstrated
adaptive skills in prison that refuted any notion that he
was mentally retarded.” Clemons v. State, 55 So.3d 314,
331 (Ala. Crim. App. 2003). Not only is Dr. Grant’s
report inconsistent with the diagnostic framework
adopted by the court, the AAMR, and the APA, but the
state court’s reliance on Dr. Grant’s report while
ignoring the results of the ABAS-II test is unreasonable
because it fails to consider the full record before the
court.
Dr. King testified at Mr. Clemons’s trial that Mr.
Clemons had no adaptive deficits. C.A. App. at 830,
761. Yet Dr. King admitted that he was unfamiliar
with Mr. Clemons’s academic record. Id. at 814–815.

21
For example, Dr. King was “not aware that [Mr.
Clemons] was held back” in school, and was not aware
of “how he did in classes. I think I just don’t recall that,
and I’m not sure that I saw it … I didn’t have all of
those [school documents] … I had some, but I did not
have all of them.” Id. at 815. Dr. King did not use any
clinical instrument to assess adaptive functioning – he
relied solely on interviews with Mr. Clemons and
information provided by the State of Alabama. Id. at
773.
Further, Dr. King used speculative hindsight
reasoning to reach his conclusion. He began by
assuming that people with IQ test scores “in the fifties
and sixties … cannot read or write” and have “[n]o
work history.” Id. at 830, 761. He then concluded that
Mr. Clemons must not have adaptive impairments
because he had worked for Domino’s Pizza as a delivery
driver and possessed a driver’s license. Id. These
assumptions are inconsistent with the diagnostic
framework adopted by the court, the AAMR, and the
APA.
The Court of Appeals acknowledged that the state
court evaluated only Mr. Clemons’s supposed adaptive
functioning strengths, but not his deficits—for example,
focusing on the fact that he once was a pizza delivery
boy (despite testimony that he could not count change
and frequently got lost in his own neighborhood). Pet.
App. 34a. The Eleventh Circuit also acknowledged that,
by today’s standards, a court’s failure to consider a
petitioner’s adaptive functioning deficits would
constitute grounds to grant habeas relief. Pet. App.
35a.

22
The Court of Appeals found that this conclusion too
was “not an unreasonable application of Atkins” when
the state court did not have the benefit of Moore v.
Texas, ___ U.S. ___, 137 S. Ct. 1039 (2017), which was
yet to be decided. But this conclusion failed to account
for the fact that the state had already determined for
itself that the appropriate clinical standards governed.
Its failure to apply those same standards was more
than enough to render unreasonable its finding of fact
that Mr. Clemons was not intellectually disabled,
sufficient to support a claim for relief under AEDPA.
3. Onset Prior to 18.
After accurately noting that the onset of a criminal
defendant’s intellectual disability must occur before 18
years of age, the state court failed to apply the law that
it had recited to the facts of Mr. Clemons’s case.
The state court focused – improperly – on IQ score
when assessing the evidence of intellectual disability
arising during Mr. Clemons’s childhood. Mr. Clemons
had only been administered one intelligence test prior
to the age of 18, scoring a 77. The state court concluded
that Mr. Clemons was “in the borderline range of
intelligence,” Pet. App. 174a, noting that a score above
70 “place[s] a defendant above the cut-off to establish
significantly subaverage intellectual functioning.” Id.
However, the state court ignored Mr. Clemons’s first
grade diagnosis of “educable mentally retarded”
(equivalent to “mild mental retardation”). This
diagnosis demonstrates, beyond dispute, that his
intellectual disability existed prior to the age of 18.
C.A. App. at 774, 856; see also DSM-IV-TR at 41. The

23
court further ignored its prior statement that a strict
cut-off score of 70 for a diagnosis of intellectual
disability was inconsistent with existing clinical
standards. Thus, the state court failed to apply the
enumerated clinical standards it found governed to the
relevant facts in reaching its conclusion that Mr.
Clemons had not demonstrated the onset of his
intellectual disability prior to the age of 18.
The record also demonstrated significant deficits of
adaptive functioning before Mr. Clemons reached age
18, contrary to the state court’s holding. Pet. App. 174a.
The state court acknowledged that the AAMR’s and the
APA’s clinical definitions required significant
limitations in adaptive functioning in at least two of
the specified skill areas. Id. at 157a–158a.
The court then ignored the evidence of Mr.
Clemons’s deficits prior to the age of 18:
• Deficits in functional academic skills:
• Mr. Clemons’s first-grade teacher reported
that Mr. Clemons “[caught] on slowly” and
“seem[ed] to be making little if any progress
in both reading and math.” C.A. App. at 868.
• He was held back twice in elementary school
and still earned D’s and F’s, despite
competing against children two years
younger than he. Id. at 543–547, 842–888.
• Deficits in functional communication skills:
• In first grade he had “great difficulty in the
use of written language,” “reverse[d] letters
or numbers,” and had “poor writing skills.”
Id. at 868.

24
Deficits in other functional skills:
• Mr. Clemons was also evaluated, while in the
first grade, to have “awkward large motor
skills,” id.,
• he “confuse[d] directions” as well as “left and
right,” id., and
• he “[took] excessive time and [did] not
complete anything.” Id.
All of this evidence points to only one conclusion:
Mr. Clemons demonstrated the intellectual and
adaptive functioning deficits justifying a diagnosis of
intellectual disability long before he reached the age of
18. Yet the state court ignored this evidence, even after
reciting the standards that required assessing all of it.
This failure is unexplained, and inexplicable.
C. When a Court Adopts a Standard, the Court
Must Apply That Standard to the Facts.
The state court explicitly recognized the clinical
standards established by the AAMR and the APA for a
determination of intellectual disability, relying on the
DSM-IV and the 1992 AAMR Manual, in addition to
the AAMR’s “most recent definition” of intellectual
disability at the time. C.A. App. at 248.
When a court has determined the applicable
standard and/or law to govern in a case, the court must
then apply the standard to the facts of the case in order
to reach its conclusion. U.S. v. Garcia, 890 F.2d 355,
360 (11th Cir. 1989) (requiring a court to “review the
undisputed facts” and “apply the law to those facts” in
order to reach a conclusion as to whether a criminal
defendant’s consent to a search was voluntary). Failure

25
to do so “certainly would qualify as a decision
‘involv[ing] an unreasonable application of … clearly
established Federal law.’” Williams v. Taylor, 529 U.S.
362, 407–408 (2000). As long as the “state court’s
application of that law is ‘objectively unreasonable,’” a
federal habeas court can set aside that state court’s
decision. McDaniel v. Brown, 558 U.S. 120, 132–133,
130 S. Ct. 665, 673 (2010).
This Court in Atkins afforded the States the
flexibility to determine a criminal defendant’s
intellectual disability. The Alabama trial court adopted
the applicable clinical standards as its governing
standard. Thus, the “state court identifie[d] the correct
governing legal principle from this Court’s decisions
but unreasonably applie[d] that principle to the facts of
the prisoner’s case” by entirely failing to apply its
chosen legal standard to the facts in Mr. Clemons’s
case. See Holland v. Jackson, 542 U.S. 649, 652, 124 S.
Ct. 2736, 2738 (2004). When the Alabama court
concluded – in clear contravention of the facts – that
Mr. Clemons is not intellectually disabled, the state
court acted unreasonably under section 2254.9
* * * *
“Even in the context of federal habeas, deference
does not imply abandonment or abdication of judicial
review,” and “does not by definition preclude relief.”

9

The state court’s failure to adhere to the clinical standards it
found applied was egregious. That the sentencing jury never heard
any evidence of Mr. Clemons’s cognitive impairment – even
Alabama concedes he is at least “borderline mentally retarded” –
renders the case tragic.

26
Miller-El v. Cockrell, 537 U.S. 322, 340, 123 S. Ct. 1029
(2003). The diagnostic evidence established the three
prongs of the intellectual disability assessment the
Alabama court properly adopted: Mr. Clemons received
a mental retardation diagnosis when in the first grade,
his IQ falls within the recognized range for intellectual
disability, and the uncontested results of the ABAS-II
establish significant limitations in six of the ten
adaptive functioning areas when only two are
necessary for an intellectual disability diagnosis.
Mental health professionals assess individuals to
identify intellectual disability, and to create programs
and interventions to enable these individuals to achieve
their highest possible level of functioning. It is simply
inconsistent with decades of established professional
standards to look the other way when, under the guise
of “deference,” federal courts permit a state court to
discard the legally governing clinical standards,
especially after acknowledging their applicability.

27
CONCLUSION
For all of these reasons, amicus urges this Court to
grant the petition for certiorari.
Respectfully submitted,
JOHN H. FLEMING
ANN GRUNEWALD FORT*
EVERSHEDS SUTHERLAND
(US) LLP
999 Peachtree Street, NE
Suite 2300
Atlanta, GA 30309-3996
(404) 853-8000
AnnFort@eversheds-sutherland.us
*Counsel of Record

March 31, 2021

ANNE B. CAMPER
NATIONAL ASSOCIATION OF
SOCIAL WORKERS
750 First St. NE
Suite 800
Washington, D.C. 20001
(800) 638-8799

